HHS/OIG-Audit--"Audit of Florida's AFDC and TANF Escheated Warrants for the Period July 1, 1993 Through September 30, 1999, (A-04-00-00133)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Florida's AFDC and TANF Escheated Warrants for the Period July 1, 1993 Through September 30, 1999," (A-04-00-00133)
March 14, 2001
Complete
Text of Report is available in PDF format (142 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State credited the Aid to Families with Dependent Children and Temporary Assistance to Needy Families (TANF) programs
for the Federal share of escheated warrants for July 1, 1993 through September 30, 1997. However, for October 1, 1997 through
September 30, 1998 the State did not credit the Federal share of escheated warrants pertaining to TANF in accordance with
either Federal regulations or State criteria. As a result, $42,053 ($21,517, Federal share) of outstanding warrants had
not been credited. State officials said they inadvertently failed to credit the Federal share of outstanding warrants.
We recommended that the State: (1) credit the TANF program $21,517 for outstanding warrants that had not been reported,
and (2) take steps to ensure escheated warrants are reported as required. State officials generally agreed with our findings
and recommendations and plan to refund the $21,517 for outstanding warrants that have not been reported.